Jou F. CAMPMELL, ESQ. A 110 State Steet
EXECUTIVE Dinecron Monipelice, VT
‘ (03633-6401
Proowe: (802) £28-2891 yoo Prax: (8002) 828-2881
STATE OF VERMONT

OFFICE OF THE EXECUTIVE DIRECTOR
DEPARTMENT OF STATE'S ATTORNEYS & SHERIFFS

June 8, 2020

Scott S. Harris, Clerk
Supreme Court of the U. S.
One First Street, NE
Washington, DC 20543

Re: Cli
Doc. No. 19-1301

Dear Mr. Harris:

On behalf of the Respondent, | request a 21-day extension, to July 10, 2020, of
the time to file a brief in opposition to the above-cited petition for a writ of certiorari. See
Sup. Ct. R. 30.4. There is good cause for this extension in light of a deadline in another
federal case being handled by counsel on the brief. In addition, counsel on the brief is
currently subject to quarantine in Lithuania, with an expected return to the United States
in early July. Petitioner does not object to this request.

Bile
ERICA MARTHAGE

Counsel of Record
Deputy State's Attorney, Chittenden County
State's Attorney, Bennington County

     

Cec: Samantha V. Lednicky, Esq.
Neal Kumar Katyal, Esq.
David Tartter, Esq.

 
